t

DOCKET NUMBER: 20-7115
Supreme Court of the United States
Christopher A. Carter
(Petitioner)
v.
(

Frank Lawrence
(Respondent)

On Writ of Certiorari to the United States Court
of Appeals for the Seventh Circuit

PETITION TO REHEAR

Illinois Office of Attorney General
Assistant Attorney General
Katherine M. Doersch
100 West Randolph Street, 12th Floor
Chicago, Illinois 60601
(Counsel of Record)

Christopher A. Carter
Inmate No. #M32025
Menard Correctional Center
Post Office Box 1000
Menard, Illinois 62259
(Appearing ProSe and In Forma Pauperis)

;

I

Received
APR - 1 2021

TABLE OF CONTENTS
United States Constitutional Amendment I
United States Constitutional Amendment V
United States Constitutional Amendment XIV
United States Constitutional Article IV,Sec.2,Cl.1
United States Constitution Article VI
Supreme Court Rule 15.2
Supreme Court Rule 44 (1),(2)
Title 18 USC§§ 1951-1960
Title 18 USC§§ 1961-1968
Title 18 USC§ 1961(5)
Title 18 USC§§ 1341,1343,1503

2, 5,10
2,' 5,1 0
2, 5,1 0
2 , 5,1 0
2
7
1
11
11
11
11

Standards For Professional Conduct For the Seventh Circuit
Ake v. Oklahoma, 470 U.S.68 (1985)
Blacks Law Dictionary 5th Edition
Butz v. Economou, 98 S.Ct. 2894 (1978)
Canon v. Commission on Judicial Qualifications,14Cal 3d
678,694 (1975)
Cooper v. Sowders, 837 F.2d 284 (1988 6th Cir.)
Davis v. Wechler, 263 U.S.22,24
Ege v. Yukins, No.05-2078 (6th Cir.2007)
Elrod v. Burns, 427 U.S.347 (1976)
Haines v. Kerner, 404 U.S.519 (1972)
Little, 452 U.S. at 5 quoting Joint Anti-Fascist Refugee
Committee v. McGrath, 341 U.S.123,162 (1951)
NAACP v. Alabama, 375 U.S.449
Perry v. United States, 204 U.S.330,358
Richey v. Bradshaw, 498 F.3d 344 (6th Cir.2007)
Robertson v. Hanks, 140 F.3d 707,709 (7th Cir.1998)
Steinmark v. Parratt, 427 F.Supp.931 (8th Cir.1977)
Stromberg v. California, 283 U.S. 359
United States v. Boyd, Nos.98-2035 to 98-2038 and 98-2060
(7thcir.2000)
United States v. Lee, 106 U.S.at 220, 1 S.Ct.261(1882)

i

4
1 1
10
3
3
2
3
10
3
10
9
3
9
10
9
2
3
6
3

i

TABLE OF CITED AUTHORITIES
UNITED STATES CONSTITUTION AMENDMENT 1: Congress shall make no
law respecting an establishment of religion, or prohibiting the
free exercise thereof; or abridging the freedom of speech, or of
the press; or of the right of the people to peaceably assemble,
and to petition the Government for a redress of grievances.
UNITED STATES CONSTITUTION AMENDMENT V: No person shall be held
to answer for a capital, or otherwise infamous crime, unless on
presentment or indictment of a Grand Jury, exceptin cases arising
in the land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any person be
subject for the same offence to be twice put in jeopardy of life
or limb; nor shall be compelled in any criminal case to be a wit­
ness against himself, nor be deprived of life, liberty, or property without due process of law,nor shall private property be
taken for public use, without just compensation.
UNITED STATES CONSTITUTION Amendment X1V Section 1:

All persons
born or naturalized in the United States, and subject to the ju­
risdiction thereof are citizens of the United States and of the
State wherein they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of
the United States, nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny any
person within its jurisdiction the equal protection of the laws.
UNITED STATES CONSTITUTION ARTICLE"JV §2, Clause 1: The Citizens
of each State shall be entitled to all Privileges and Immunities
of Citizens in the several States.
UNITED STATES CONSTITUTION ARTICLE V1 : This Constitution and the
Laws of the United States
which shall be made in Pursuance thereof'
and all Treaties made, or
which shall be made, under the Authority
of the United States, shall be the supreme Law of the Land; and
the judges in every State
shall be bound thereby, any Thing in the
the Constitution or Laws of any State to the Contrary notwith­
standing.
ii

1fl

This petition for rehearing is presented in good faith and

not for delay. Grounds relied on are limited to intervening cir­
cumstances of a substantial or controlling effect, pursuant to
U.S. Supreme Court Rule 44 (1 ),(2) -

GROUND ONE: Is it possible

to conduct a fundamentally fair proceeding when a party has not
received notification and was denied access to the court, and did
the Northern District of IL. conduct proper Habeas Corpus proceedings?
GROUND TWO: Was the Seventh Circuit's response to En
Banc request properly examined in light of judicial duty and con­
temporaneous U.S. Supreme Court selection and nomination process?
GROUND THREE:

Did lower courts properly examine and determine

default of all claims alleged by State in light of State reaching
merits in alternative, district court identified due process vio­
lations raised, which are substantial by nature, and State in
Writ of Certiorari where all was answered agreed with , and Re- spondent f-i-lihg no brief in'Opposition?
GROUND I
2fl

Respectfully, the District's response appears to be improper

and in bad faith where no remedial or corrective action was taken
when presented with overwhelming, indisputable demonstration of
the federal court system in error itself denying Due Process NOTICE.
3fl

Notice, access to the court to be heard, and a fair hearing

are some of the constituent elements of due process. An investi­
gation of this case will uncover that Petitioner did not receive
notice to Reply and that Judge's Deputy clerk as well as court
was aware they had received promptings .from Mr. Carter's family.
Two telephone calls on 8/26/2019 to Judge's Deputy clerk and two
telephone calls on 8/27/2019 to Judge's Deputy Clerk. Tracking
No. to letter dated 8/26/2019 to the Judge. Priority Mail track­
ing No. with copies of Exhibits to Chief Judge and Judge dated
9/4/2019 and 9/9/2019. Exhibits included letter to many Wardens,

1

35[

at Menard Correctional of mail problems, IDOC (Illinois Dept,

of Corrections) letters to/from IDOC staff of mail problems and
mail equipment breakdowns. They still continued to proceed regard­
less, continuing to trample on the Constitution and Petitioner's
rights. (U.S. Constitution Amendment 1,V,X1V; Article 1V§2Clause1,
Article V1). The Office of the Inspector General or the U.S.
Supreme Court cari obtain phone records of Northern District Of IL
court clerk and Petitioner's mother, Mrs . Nofles, r<etordg from
Menard s Clinical Services and MailRoom proving Mr. Carter was
not notified. Court and clerk were notified, and rather than do
or justice, were motivated to rush to deny justice.
451

Following trial and throughout the process Mr. Carter has

never missed a time or deadline, exercising all due diligence.
Why now? In the habeas corpus petition and writ's statement of
facts, mail problems are documented. The IDOC Director, Chief
Judge, district judge, and court clerk were all apprised of diffi­
culties with. Menard and sensitive mail. Menard does however, log
all Legal Mail and Outgoing mail. Mail Room keeps copies of all
Legal Mail Receipts (Form IL-429-8298), showing signatures of the
°ff^-cer handling out legal mail and inmate receiving mail,

They
have no record of a Legal Mail Receipt for a Notice to Reply from
U.S. District Court, Northern District of IL.
551

Such conduct is fundamentally unfair, and denials of due pro­

cess are substantial and never harmless error. This is a manifest
constitutional error. Had the clerk and court not rushed to close
and deny the habeas corpus petition, Mr. Carter would have been able
to produce a Reply to the State's ANSWER sufficient to refute and
satisfy all of the State's claims and concerns to where the State
would be obliged to file no brief in opposition as it did on Writ
of Certiorari agreeing with Mr. Carter. (Cooper v. Sowders, 837
F.2d 284(1 988 6thCir.); Steinmark v. Parratt, 427 F.Supp.931(8th
Cir.1977)) . Where federal claim is stated, appropriate remedy is
permissible and required. Supremacy Clause of Constitution indi­
cates all judges are bound by it and its laws. This is a serious

2

5fl

problem in the American legal system, where so many are com­

fortable to deny relief, justice, constructively, or watch others
do so and stay silent.
6fl

There is no evidence in the record of dispassionate employ;-

ment of logic and reason, it is actually the opposite. Reviewing
of difficult cases requires the best and brightest minds but also
the ethereal, rare qualities which are easy to lose grasp of character and ethics. A fundamentally fair proceeding in any rea­
sonable person's judgment does not include conduct of this type,
where judges or clerk and staff flee from cries for help or assis­
tance. Type of charges fought do not justify this circumstance
either. It is simple prejudice, prejudicial and bias. Federal
court, state, U.S. Attorney, Attorney General vs. unrepresented
Petitioner = unfair situation, an intervening circumstance of a
substantial effect. "Loss of First Amendment freedoms, for even
minimal amounts of time, unquestionably constitutes irreparable
injury." (Elrod v. Burns, 427 U.S.347(1976).

Biased court.

7fl The assertion of federal rights, when plainly and reasonably
made are not to be defeated under name of local practice."
(Davis v. Wechler,263 U.S.22,24; Stromberg v. California,283 U.S.
359; NAACP v. Alabama, 375 U.S. 449). "No man [or woman] in this
country is so high he is above the law. No officer of the law may
set that law at defiance with impunity. All officers of the gov­
ernment from the highest to the lowest, are creatures of the law,
and are bound to obey it." (Butz v. Economou,98 S.Ct. 2894(1 978);
(United States v. Lee,106 U.S. at 220,1 S.Ct. at 261(1882)).
So what happened here?
"Acts in excess of judicial authority
constitutes misconduct particularly where a judge deliberately
disregards the requirements of fairness and due process." (Cannon
v. Commission on Judicial Qualifications,14 Cal.3d 678,694(1975)).
Misconduct is a manifest constitutional error.
811 If one can tell who or what a society is by how it treats its
vulnerable class or minority, what does this say of America? No

3

8fl reasonable jurist or layperson could conclude that these
treatments and actions were justified and proper, they were gross ly abusive and violative of the Constitution and Judicial Canons
and Standards For Professional Conduct For Seventh Circuit. There
still needs to be a redo of proceedings fully, with integrity
that conforms to rules the public can have confidence in.

GROUND II
951

This case has suffered intervening circumstances of a substan -

tial and controlling effect involving two separate individuals,
their career ambitions and aspirations, and their peers, which re­
sulted in denials of due process and Constitutional rights. One
on the State level, the other federal. Mr. Brian Jacobs, a central
figure of the habeas petition, was an assistant public defender
during trial. During appeal he was promoted to chief deputy publ.ic
defender, then trial judge after State Supreme Court declined PLAHis confirmation had been on hold for two years until denial.
There has been no legal cooperation from DuPage County in this
case.
1051

The second person’s nomination has caused intervening circum-

stance of a substantial and controlling effect. A conflict of in­
terest, that is not easily remedied. Integrity of the Judicial
System necessitates a full review and appropriate remedies. No
law student or lawyer, Mr. Carter, a layperson, an engineer who
is gifted with a measure of prudence, humbly opines that proper
course would be to have spoken up as a panelist to cause a vote
to be called on the En Banc Rehearing request and vote as their
education, intelligence, experience, and ethics guide, rather
than stay silent for an easier Supreme Court Senate Judiciary
Committee nomination process. This person was announced as the
nominee for Justice Ginsberg's open seat at the same time this
case was in Seventh Circuit's docket.

4

11This person's fears were not unfounded, one of the senators,
likely Dick Durbin or Charles Schumer, commented that he pulled
up and reviewed all of her rulings while on the Seventh Circuit.
But that does not change that the right thing to do is speak up,
not to be silent for self-interest. This senator asked a direct
question; "did she have any ambition to be on the Supreme Court?"
She testified to the Senate Judiciary Committee "that she did
not."

This is not a true answer and Congress will not see that

it was either. A justice of the U.S. Supreme Court once said; "if
you are satisfied with all of your rulings and decisions, you're
doing something wrong."

This is very serious.

She graduated num­

ber one in her law school class, a Rhodes Scholar like Pres. Bill
Clinton, second to no one in intelligence, legal aptitude; she
made no "traditional mistake", this was a calculated decision not
to speak up, nor address due process violations, nor face ener­
gized political grilling for dealing with a controversial case.
She was a judge bound by Constitution, Judicial Canons and Stan­
dards of Professional Conduct, (ante).
12fl This justice has recused herself. Mr. Carter's brother was a
U.S. Marine. Marines don't run from trouble, they run to it so
they get scars. Our scars make us better people, they build our
character and make us more compassionate people. That's how Mr.
Carter got his scars, running to an ex. to help her with her fami­
ly of multi-generations of dysfunction and he had no mentalhealth
skills or background information - BUT HE TRIED! It would have
been better to stand up and defend the "words on the page," than
to take the easy way out. The Comity Clause, Equal Protection
Clause, and Due Process Clauses demand fairness and action. (U.S.
Constitution Amendment 1,V,X1V; Article 1V §2 Clausel.).
1311 With the appellate jurisdiction and authority of the Seventh
Circuit and the ability to operate sua sponte or nostra sponte,

5

13J[

how does one explain a "manifest disregard of the law" or is

it just business as usual in Chicago? There is no "Shield of
Aegis" to hide these actions behind. It goes with mentioning, if
any of the panel of jurists had called for a vote it still would
have made confirmation and questions more difficult. Chicago's
irony of being blind to the law; but bullies get stronger when .
not confronted or dealt with. Seventh Circuit in Boyd, castigates
district for its actions in defiance of U.S. Supreme Court, but
does the same types or categories of actions here. It fails to
catch and correct its own errors. (United States v. Boyd,98-2035
to 98-2038 and 98-2060,(7th Cir.2000)). Specific language in Boyd
where the Court "instructed appellate courts that they, too, may
raise issues on their own initiative."
cuit's own rulings apply to itself?

How does the Seventh Cir­

Along with the U.S. Supreme

Court, they must be enforced.
How has the Seventh Circuit's rulings modified the body of law?
It has placed the federal appellate courts' imprimatur on judges
not being bound to or by the Judicial Canons, the Standards of
Professional Conduct, the Constitution's Due Process, Equal Pro­
tection, Comity and Supremacy Clauses. The rulings are unconstitu­
tional and implicitly condone unconstitutional acts of a legal
nature to the Seventh Circuit and all lower courts, it erodes the
integrity of the judiciary and the American Justice System, An
unconstitutional precedent.
1451

This is the second time lightning has struck in this case

with two individuals receiving judicial nominations or promotions*
Mr. Carter seeks a full review and an evidentiary hearing, both
on the merits with constitutional protections and safeguards in
place, as old families that once controlled Illinois are now no
longer in power or place, but when they were, they completely and
unreasonably suppressed and dominated the State, preventing any
cooperation in appellate efforts. A complete, fair review at this

6

14fl

time will reveal and expose the level of past corruption and

Mr. Carter's innocence. As the Writ of Certiorari was agreed to
and no brief in opposition filed, pursuant to Supreme Court Rule
15.2, "there is an obligation to address perceived misstatements
of fact or law," and."an obligation to the Court to point out in
brief in opposition, and not later, any perceived misstatement
made in the petition."
Habeas Corpus Petition;

There was none. Nor was there any in the
This is a result of an impatient, unac-

commodating court leaning toward the State. This U.S. Supreme
Court is a citadel where rules exist and are enforced, a refuge.

GROUND III
15fl

Did the lower courts properly examine and resolve the Habeas

Corpus Petition, and the assertions of the State appellate court
of procedural default when it reached the merits in the alternartive?
1611

Efforts were made to address all of state appellate courts
or State's contentions in Reply to States ANSWER that was converted into another type of document rather than accommodate
after asking for notice and time to respond or reply as well as
the motion filed in Petition to Rehear EnBanc, and the Writ's
text. The lower courts have presented an obdurate demeanor to
Mr. Carter.
1 7 H Composition of the panel was assigned to this case as well
as the nominee named earlier, are all appointees of the same
Administration. The two panel judges who comprised the original
Seventh Circuit panel had been on the bench for little more than
a year when this case was assigned to them. The nominee had once
already been selected by the Administration and was again being
tapped for the highest Court, and had herself also been seated
for little more than a year.

7

17fl

In an ORDER before the two judge panel of the Seventh Cir­

cuit, states "Christopher Carter has filed a notice of appeal
from denial of his petition under 28 U.S.C.§2254, which we con­
strue as an application for a certificate of appealability. This
court has reviewed the final order of the district court and the
record on appeal. We find no substantial showing of the denial of
a constitutional right." FIRST, in the two judge panel in the
final order and record on appeal there was a showing of the deni­
al of a constitutional right but, in their opinion it was not
substantial. Does it have to be a substantial showing to be con­
sidered a constitutional right?

Can it be a showing to be consid­

ered a constitutional right being denied?

THEN, a substantial

showing is a subjective judgment based on an idea, opinion, men­
tal concept. How much is substantial?

Subjective judgments are

affected by personal views, experience and one's perception.
The Order by the two young judges panel contained only three sen­
tences. And in those sentences, there is no evidence that they
conducted a reasonable investigation, carefully read district
court orders, searched through the record and docket entries to
make certain any mistakes or errors were corrected. Then promptly
bring those matters to the district judges

attention, for appro­

priate action to correct any deficiencies in the judgment. The
Order did not mention the contents of the Priority Mail envelope
that Mr. Carter submitted to the judge in Reply to the State's
ANSWER. Mr. Carter's Reply was given an extension due to inter­
vening circumstances, and was properly and timely filed and made
the deadline of 9/27/2019 as requested, on 9/26/2019. No mention
was made of the deadline being met, contrary to Order dated
8/27/2019,p.2,3. No mention was made of the contents contained in
the Reply to State's ANSWER, by the Judge. No mention was made of
any clerk, Deputy Clerk or the Judge, ever reading the vital ma­
terial contained in the Reply to State's ANSWER, and publishing
an Order.
8

1751

The dismissal could have been avoided if Judge Kendall's

staff had taken the time to read the request for an extension to
Mr. Carter, know relief was granted to an extension with a dead­
line of 9/27/2019 and Reply to State's ANSWER is delivered to the
Judge's office on 9/26/2019. If staff had reviewed response to
the requested Reply to State's ANSWER, if staff drafted a state­
ment acknowledging the Reply to State's ANSWER and timeliness of
the Reply to State's ANSWER, Judge Kendall would have granted the
COA and IFP. BUT, NO ONE bothered to fix the problem that lead to
dismissal. Did Judge Kendall know that Mr. Carter did timely file
a Reply to State's ANSWER and if not, why not? (THE ERRORS NEED
TO BE CORRECTED.)
The two judge panel given their time on the Seventh Circuit, were
they even aware of their own circuit's determinations that reach­
ing the merits in the alternative, "the issue is not procedurally
defaulted for habeas corpus purposes,"(Robertson v. Hanks,140F.3d
707,709(7thCir.1998)), as well as other circuits and this Court
reaching the same? The Supreme Court in "Perry," highlighted that
it is the citizen's duty or function to keep the government from
falling into error, a landmark precedent case. (Perry v. United
States,204 U.S.330,358) "I do not understand the government to
contend that it is any less bound by the obligation than a priv
vate individual would be.." "It is not the function of our govern­
ment to keep the citizen from falling into error; it is the func­
tion of the citizen to keep the government from falling into
error."
1851

Supreme Court Rules, appellate circuits, districts rules as

well as State courts at all levels require NOTICE, a constituent
element of Due Process. But due process is not to be inflexible
and "is flexible and calls for such procedural protections asthe
situation demands." (Little,452 U.S.at 5 quoting Joint Anti-Fas- .
cist Refugee Committee v. McGrath,341 U.S. 123,162(1951).
9

18fl

Under the "Haines v. Kerner" standard, in federal courts,

"pro se litigants are entitled under the due process clause to
have their pleadings liberally construed." (Haines v. Kerner 404
U.S. 519(1972)). Strict compliance is inconsistent with liberal
construction. Can the lower courts be said to have exercised "due
diligence?" Black's Law Dictionary 5th Ed., defines due diligence
as, "1.The diligence reasonably expected from, and ordinarily ex­
ercised by, a person who seeks to satisfy a legal requirement or
to discharge an obligation."
1District court unreasonable, unconstitutional, and erred in
its handling of habeas corpus petition and surrounding circumstan­
ces. As it stands, there exists manifest constitutional errors,
plain errors, and other types of errors that are all held to be
due process violations by other circuits and jurists, but are
overlooked by the Seventh Circuit and the district court. Foren­
sic fraud, perjury, and foundationless testimony and statistics
by an expert witness (Richey v. Bradshaw; Ege v. Yukins), are
held to be constitutional violations of due process in those
cases. This ruling has the effect of tyrannical action of deny­
ing natural born citizens the protection of America's founding
document, the Constitution, rendering these actions unconstitu­
tional, offending Due Process Clauses, the Comity Clause, Equal
Protection Clause, the Right to Access the Courts and Right to
be Heard. (U.S. Constitution Amendment 1,V,X1V;Article 1V§ 2
Clause 1). This is all independent of the Issues raised in habe­
as corpus petition.
20JI

Critical evidence is that which "Is strong enough that its

presence could tilt a juror's mind. Under Due Process Clause, an
indigent criminal defendant is entitled to an expert opinion of
the merits of critical evidence," According to Black's Law
1Q

20fl

Dictionary, as well as Ake v. Oklahoma. Considering quantity

of issues raised in habeas corpus petition relative, it is unrea­
sonable to not find substantial constitutional denials. Applied
Bio Systems Inc. the firm responsible for numerous wrongful con­
victions from faulty lab equipment is the same lab equipment used
in this case but no review has been conducted. A fair minded ap­
praisal will prove that this case has not been treated fairly,
and constitutional rights have been violated and ignored through­
out the case. The basic constitutional rights can never be treat­
ed as harmless error.
21fl

Lastly, there may be a situation where none of the judges

were informed by the many methods of attempts at informing of
"NO NOTICE RECEIVED," in which case conditions exist to warrant
state or federal investigation for possible RICO charges. There
would be obstruction of justice, destruction of evidence and docu­
ments, erasing phone and computer traces of calls, although car­
riers still have these records. Mail fraud and wire fraud and
racketeering. (Title 18 USC§1961(5), 18 USC§§1961-1968; 18 USC§§
1951-1960; 18 USC§§1341,1343,1503). If these listed methods of
contact are intact and not destroyed it becomes evident that
there are serious errors, with a disregard for facts, law, and
the Constitution.
22^1 Mr. Carter would ask the U.S. Supreme Court to review, and
assist in the investigation and resolution of these most serious
matters with the authority and resources available to the Court.
23fl
Mr. Carter would ask the U.S. Supreme Court to request a courtordered evidentiary hearing as NO evidence from him has ever been
presented by legal counsel and all relevant evidence must be ex­
plained from the trial, and courts' proceedings. Also, that safe­
guards and protections be put in place to prevent his bodily harm
during these proceedings.
11

Mernro

rec

<5D

Ced@r

M enur'd ,UI Ind3 ItfQAFi

Kb< ?o-1115~
CEPTIPiOAtE OF S&NICE
I doaUfsl' underpenal-ly crfi p^rj ury,-IW’ I have. plnmJ
in 4fe

UnHeJ 5ferfes HW I

Menard. (bffB?fton_ Carter pcsfcpp

and pursuainH^5uprew£iScurt f?uk Z4 a epp/oiih^ Included
Ml+ldh-k fiel^3f(4 Wril^ &rlfoarl +o fUdl^ers NiSu'Mft'Shifts
oppC5i!nj poriys
'ferCO m an d
ecuns?. fccorAjic; AsslsWtk AWsrm/Oaoera( kerf^ente /1/L
)0 West Randolph Sk^42^ floes; CMco^tillmls LtUd}
on. Xi9 fAavch poZl.
fhrouno4do2§ UC05> H4k, i deelateunderp-emkyo£
p erj ury 4hfdrZb_4Dr^po//p /sdfU6L ond cdfrcdr.

Momrd fiofredlm fienler
P>6o

lOCO

Menord, H1 /Ws Ul^fi

Mo. ?0-llllT

CERTIFICATE OF SERVICE.
I do atrissb under pernHy cdd per/ury, "HooP 1 have placed
2d

Supper C.&\Ar^'Qulf~2.Gli zi GDpy
Included (kHllgn^iQIrmr
cd Wrld^d Gerlfs rzxi tAsskzurt. AAbrnsy General, kGGhenfbe,
M. l)£££scl% [(^U/^fiand^lplnSlrFeei; iGikFl^Dr; diafa^odillfefe
h&L£>[ rei.<2.? 9k*AsJ^s ZOZl,

Pur^uKmt't 2fe u.S .2* §
I declare un
kirijconJ corradr.
UMdt l Peggy AJ o-P fg^s____________
AXyQf?gsd’
-oummgr jQ^nbr^iSl
F)or(ss^ji4; M fs^bu r/ S3S33
Si SKJATtiR £1

9U£JbuJ

6+perjury

%A'

CffiTIFICATE OF COUMSEL PUKUMrro fiULE 44
Tlob CfeFtisn Is pnzsevdod lngo&J4al4i ond ndr-fzsrdelay.
12

MfnanJ CdfrtcMsn Osnfer
Pi 0.

iOC6

M.^mrd%ll ilncfe L2Z5%

